     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




    Actions Needed to Better Assess and Coordinate
 Capacity-Building Efforts at the Ministry of Agriculture,
                Irrigation, and Livestock




                                        October 20, 2011


SIGAR Audit-12-1 Governance and Development/Agriculture
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


October 20, 2011

Executive Departments and Agencies:

This report discusses the results of a performance audit by the Office of the Special Inspector General
for Afghanistan Reconstruction (SIGAR) of U.S. assistance to build the capacity of the Ministry of
Agriculture, Irrigation, and Livestock. This report includes five recommendations to the U.S.
Ambassador to Afghanistan to improve management and integration of U.S. capacity-building efforts to
ensure the sustainment of U.S. agriculture assistance in Afghanistan.

A summary of this report is on page iii. When preparing the final report, we considered comments from
the U.S. Embassy in Kabul, which are reproduced in appendix III of this report. The U.S. Embassy
concurred with our recommendations and noted actions they are taking to address them. We
conducted this performance audit under the authority of Public Law No. 110-181, as amended, the
Inspector General Act of 1978, and the Inspector General Reform Act of 2008.




Steven J Trent
Acting Special Inspector General
   for Afghanistan Reconstruction




SIGAR Audit-12-1 Governance and Development/Agriculture                                           Page i
The Honorable Hillary Rodham Clinton
Secretary of State

The Honorable Leon Panetta
Secretary of Defense

The Honorable Thomas J. Vilsack
Secretary of Agriculture

General James N. Mattis
Commander, U.S. Central Command

The Honorable Ryan C. Crocker
U.S. Ambassador to Afghanistan

General John R. Allen
Commander, U.S. Forces – Afghanistan, and
  Commander, International Security Assistance Force

General Craig R. McKinley
Chief, National Guard Bureau

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Dr. S. Ken Yamashita
USAID Mission Director for Afghanistan




SIGAR Audit-12-1 Governance and Development/Agriculture   Page ii
                SIGAR
                                                           SIGAR Audit-12-1                                           October 2011
                                                             Actions Needed to Better Assess and Coordinate
                                                                Capacity-Building Efforts at the Ministry of
Special Inspector General for Afghanistan Reconstruction           Agriculture, Irrigation, and Livestock
What SIGAR Reviewed
Decades of conflict and neglect have devastated Afghanistan’s agriculture sector, yet between 65 to 80 percent of the
Afghan population are dependent on agriculture for their livelihoods. The United States has made rebuilding the Afghan
agriculture sector one of its highest development priorities. Between fiscal years 2002 and 2010, the United States
invested more than $1 billion to develop Afghanistan’s agriculture sector and plans to continue to invest in this sector.
To improve the long-term sustainability of U.S.-funded agriculture projects, U.S. agencies have provided $77 million to
help build the capacity of the Ministry of Agriculture, Irrigation and Livestock (MAIL) to better serve farmers and
promote private sector development. As part of this effort, the U.S. Department of Agriculture (USDA), the U.S. Agency
for International Development (USAID), and the Department of Defense (DOD) have deployed agricultural advisors and
agribusiness development teams throughout Afghanistan. This report assesses (1) the extent to which U.S. capacity-
building programs and activities in agriculture are coordinated and integrated and (2) progress made in building MAIL’s
capacity in Kabul and at its provincial offices. SIGAR interviewed officials from USDA, USAID, DOD, and U.S. Embassy
Kabul, as well as Afghan government officials and implementing partners. SIGAR also reviewed U.S. strategies and plans,
program documents, budgets, and performance management plans. SIGAR conducted its work in Kabul, Balkh Province,
and Nangarhar Province, Afghanistan, and Washington, D.C., from October 2010 to September 2011 in accordance with
generally accepted government auditing standards.
What SIGAR Found
In accordance with the U.S. Government Agriculture Assistance Strategy for Afghanistan, the U.S. Embassy Kabul has
taken steps to better coordinate and integrate U.S. agriculture assistance and capacity-building efforts, but
coordination and integration problems among the national, provincial, and district levels continue to limit the
effectiveness of the U.S effort. For example, U.S. personnel in the field were unaware of capacity-building activities at
the ministry in Kabul and therefore could not ensure they were building the same capabilities in provinces and districts
as those in Kabul. Several factors contribute to these coordination challenges, such as insufficient guidance to those
implementing capacity-building activities, ineffective use of existing coordination mechanisms, and incomplete
devolution of administrative and programmatic authority to USAID field program officers. Without effective
coordination and integration of U.S. capacity-building efforts, U.S. agencies cannot assure their programs and activities
are well aligned or mutually reinforcing in building the Afghans’ capacity to provide agriculture programs and services.
To the extent that the Afghan government can develop the capacity to deliver agriculture services, the U.S. government
and other donor countries can reduce the number of personnel (at an estimated cost of up to $570,998 per person per
year) and program funds required to support agriculture needs in Afghanistan.
The U.S. Embassy has not been able to determine how much progress has been made to date in building ministry
capacity because it did not have sufficient or complete data. The Agriculture Campaign Assessment does not include
USDA and DOD agricultural advisors’ capacity-building activities, and the performance data that agencies collect is not
consistent, thereby making it difficult for the U.S. Embassy to incorporate them into its assessment. Moreover, the
Agriculture Campaign Assessment does not have performance baselines and targets for all of its performance
indicators, and it largely measures the products of capacity-building efforts, rather than the results achieved. Without a
mechanism that can sufficiently and reliably assess and report on progress made in building MAIL’s capacity, the U.S.
Embassy is not able to evaluate whether the strategy is working and resources are properly aligned. Without being able
to assess progress, these agencies cannot identify what changes are needed to improve the effectiveness of their
programs and ensure sustainable results.
What SIGAR Recommends
SIGAR is making five recommendations to the U.S. Ambassador to Afghanistan to improve the management and
integration of U.S. capacity-building programs for MAIL and better ensure the long-term sustainability of U.S.-funded
agriculture projects. These recommendations address the need to improve the integration and coordination of
U.S capacity-building efforts, more closely integrate DOD’s agribusiness development team capacity-building activities
with those of civilian agencies, and more accurately and consistently measure civilian-military progress made in building
MAIL’s capacity in Kabul and in the provinces. In commenting on a draft of this report, the U.S. Embassy Kabul
concurred with the recommendations and noted steps it will take to address them.
                    For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil


SIGAR Audit-12-1 Governance and Development/Agriculture                                                                       Page iii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Coordination In Kabul Has Improved But Several Factors Continue To Hamper
   Integration of U.S. Capacity-Building Efforts .......................................................................................... 5
The U.S. Embassy Faces Difficulty Assessing Progress In Building MAIL’s Capacity ..................................... 9
Conclusion ................................................................................................................................................... 13
Recommendations ...................................................................................................................................... 13
Comments ................................................................................................................................................... 14
Appendix I: Scope and Methodology ......................................................................................................... 15
Appendix II: USAID Agricultural Programs That Contribute to Building MAIL’s
   Capacity ................................................................................................................................................ 17
Appendix III: Comments from the U.S. Embassy Kabul ............................................................................. 19


TABLES

Table I: USAID Agricultural Programs with Capacity-Building Objectives in Fiscal
    Year 2010 .............................................................................................................................................. 17




SIGAR Audit-12-1 Governance and Development/Agriculture                                                                                               Page iv
ACRONYMS

ADT                     Agribusiness Development Team
CDDEA                   Coordinating Director for Development and Economic Affairs
DAIL                    Directorate of Agriculture, Irrigation, and Livestock
DOD                     Department of Defense
ISAF                    International Security Assistance Force
MAIL                    Ministry of Agriculture, Irrigation, and Livestock
SIGAR                   Special Inspector General for Afghanistan Reconstruction
USAID                   U.S. Agency for International Development
USDA                    U.S. Department of Agriculture




SIGAR Audit-12-1 Governance and Development/Agriculture                              Page v
Actions Needed to Better Assess and Coordinate Capacity-Building Efforts at the
               Ministry of Agriculture, Irrigation, and Livestock


Through fiscal year 2010, U.S. agencies had obligated more than $1 billion in agricultural assistance.
After focusing primarily on humanitarian and stabilization activities, U.S. agencies are adjusting their
program portfolios to make fundamental investments in the development of Afghanistan’s agriculture
sector. The long-term success and sustainability of this investment depends on the ability of the Afghan
Ministry of Agriculture, Irrigation, and Livestock (MAIL) to perform its core functions—restoring
Afghanistan’s licit agricultural economy by delivering services to farmers and supporting private sector
market development—but the ministry faces serious capacity limitations after decades of conflict and
neglect. Consequently, in 2010, the U.S. Embassy Kabul made building MAIL’s capacity a high priority for
U.S. agricultural assistance.

Three U.S. agencies—the U.S. Department of Agriculture (USDA), the U.S. Agency for International
Development (USAID), and the Department of Defense (DOD)—have a significant role in building MAIL’s
capacity in Kabul and in Afghanistan’s provinces and districts. USDA and USAID have already provided
$77 million for capacity-building activities in their agricultural programs that were active in fiscal years
2010 and 2011, and they plan to obligate significant funding for capacity building in agricultural
programs in the near future.

This report assesses the (1) extent to which U.S. capacity-building programs and activities in agriculture
are coordinated and integrated and (2) progress made in building MAIL’s capacity in Kabul and at its
provincial offices.

To accomplish these objectives, we reviewed U.S. and Afghan government strategies and campaign
plans; agricultural program contracts and agreements, work plans, and USAID’s performance
management plan; and performance reports and assessments. We also interviewed officials from the
U.S. Embassy, USDA, USAID, DOD’s Agribusiness Development Teams (ADT), as well as MAIL officials in
Kabul and in the provinces, implementing partners, and the International Security Assistance Force
(ISAF). We attended an Agriculture Conference in November 2010 and an ADT Conference in March
2011. We conducted our work in Kabul, Balkh Province, and Nangarhar Province, Afghanistan, and
Washington, D.C., from October 2010 to September 2011, in accordance with generally accepted
government auditing standards. Appendix I includes a more detailed discussion of our scope and
methodology.




SIGAR Audit-12-1 Governance and Development/Agriculture                                               Page 1
BACKGROUND

The agriculture sector is integral to Afghanistan’s long-term political and economic stability. It accounts
for more than a third of Afghanistan’s gross domestic product (excluding the illicit opium economy), and
an estimated 65 to 80 percent of Afghans depend on it for their livelihoods. 1 Decades of conflict,
frequent droughts, and environmental degradation have decimated the sector. Farmers have limited
access to quality agricultural inputs and credit, suffer from pre- and post-harvest loss, and struggle to
transport their products to markets that often provide only limited returns. Additionally, the lack of
strong public services for farmers inhibits agriculture sector growth. Meanwhile, the higher profit
margins and wages that can be earned from cultivating poppies for illicit opium production can lure
many farmers into activities that feed instability, support the insurgency, and undermine the
government.

U.S. Agriculture Assistance Strategy and Organization

Since fiscal year 2002, the U.S. government has provided agricultural assistance to Afghanistan. The
focus of this assistance has changed from providing emergency food assistance in 2002 and 2003 and
counternarcotics-related alternative development programs from 2004 through 2008 to countering the
insurgency and developing the agriculture sector since 2009. In October 2009, the U.S. Embassy issued
the USG Agriculture Assistance Strategy for Afghanistan (U.S. agriculture strategy) to bring greater
coherency to U.S. government efforts to rebuild Afghanistan’s agriculture sector. The strategy identifies
two goals for U.S. assistance to the agriculture sector. The first is to increase agriculture-related jobs
and incomes. The second is to increase the confidence that Afghans have in their government. To
accomplish these goals, U.S. agriculture assistance seeks to (1) increase agricultural productivity,
(2) regenerate agribusiness, (3) rehabilitate watersheds and improve irrigation infrastructure, and
(4) increase MAIL’s capacity to deliver services to rural farmers and herders and promote the private
sector and farmer associations. The Afghanistan and Pakistan Regional Stabilization Strategy and the
United States Government Integrated Civilian-Military Campaign Plan for Support to Afghanistan
reiterated these goals and objectives in 2010 and 2011. 2

In the summer of 2010, the U.S. Embassy’s Coordinating Director for Development and Economic Affairs
(CDDEA) raised concerns that U.S. agriculture assistance was not well coordinated and was not achieving
its strategic objectives despite the substantial U.S. investment in the agriculture sector. As a result, the
U.S. Embassy took several steps to address these problems. 3 First, in November 2010, the U.S.
Ambassador appointed a Senior Agriculture Coordinator with responsibility for developing and directing
U.S. agriculture policy and oversight of all U.S. agriculture-related personnel and programs. Second, the
Ambassador established a Senior Agriculture Policy Committee and restructured the existing Agriculture
Working Group, whose membership includes representatives from the U.S. Embassy; USDA; USAID; ISAF
headquarters; the Department of State’s Bureau for International Narcotics and Law Enforcement
Affairs; the U.S. Army Corps of Engineers; and agricultural advisors at the regional, provincial, and



1
  According to United Nations Office of Drugs and Crime, the farm-gate value of opium was 9 percent of
Afghanistan’s gross domestic product, or $1.4 billion, in 2011. See United Nations Office of Drugs and
Crime/Afghanistan Ministry of Counter Narcotics, Afghanistan Opium Survey 2011 Summary Findings, October
2011
2
  The U.S. goals and objectives are also consistent with the Afghan government’s National Agriculture
Development Framework.
3
  The ambassadorial-level Coordinating Director for Development and Economic Affairs coordinates the activities
of sections and agencies focused on development and economic affairs in Afghanistan.
SIGAR Audit-12-1 Governance and Development/Agriculture                                                   Page 2
district levels. Third, CDDEA conducted a comprehensive review of U.S. agriculture assistance and made
20 recommendations to improve the effectiveness and efficiency of U.S. agriculture assistance. 4

Building MAIL’s Capacity Is a U.S. Priority

In 2010, the U.S. Embassy Kabul made building MAIL’s capacity a high priority for U.S. agricultural
assistance for several reasons. First, establishing institutions that can adequately perform their core
functions is necessary for the Afghan government to take over lead responsibility for security in 2014, in
accordance with the Lisbon Summit Declaration. 5 In addition, the United States and international
donors committed to channeling at least 50 percent of development assistance through the Afghan
government by 2012, and MAIL is expected to play a significant role in fulfilling this commitment.
Implementing programs directly through MAIL rather than through contractors would have longer-
lasting effects and be less expensive in the long term. Providing assistance through the Afghan
government is dependent upon MAIL’s ability to demonstrate the capacity to handle the assistance.
Furthermore, the success and sustainability of U.S. agriculture programs depends on MAIL’s ability to
maintain and sustain the results or benefits of those programs in the future.

MAIL faces a significant capacity deficit after decades of conflict and neglect. According to a 2010
compilation of six organizational assessments prepared by Volunteers for Economic Growth Alliance, 6
more than 55 percent of MAIL’s technical staff did not meet the basic skill requirement for their
positions, 40 percent of districts did not have an agriculture office and existing offices often lacked the
personnel and technical skills for even basic services, and MAIL’s procurement processes were very
complicated—exceeding 60 steps—which slowed down business functions. In addition, MAIL’s budget
execution rate was low with MAIL only executing 30 percent of its solar year 1388 budget due to
insufficient program design and implementation capacity. 7 A June 2010 USAID assessment found that
MAIL was not ready to independently manage USAID funds with sufficient accountability and
implementation capacity without significant improvement in all core functional areas including finance,
procurement, internal audit, human resources, project formulation and management. In July 2010, the
Government Accountability Office reported that MAIL lacked the capacity to maintain and sustain the
agricultural programs put in place by donors. 8

MAIL is charged with restoring Afghanistan’s licit agricultural economy. Its primary functions include
agricultural research and extension, livestock and animal health, land management, natural resource
management, irrigation and infrastructure, and program implementation and coordination. It has a
presence in all of Afghanistan’s 34 provinces through its provincial Directorates of Agriculture, Irrigation,
and Livestock (DAIL), which are the primary link between the Ministry in Kabul and farmers and herders
in the provinces.


4
  U.S. Embassy Kabul, Afghanistan, USG Agricultural Assistance to Afghanistan: A Review (March 21, 2011). The
review’s recommendations addressed program alignment; performance reporting; transition to Afghan authority;
budget actions; clarity of mission; agency coordination; program procurement and execution; provincial
agriculture development strategies; field staffing; and international collaboration.
5
  On November 20, 2010, the heads of state and government participating in the meeting of the North Atlantic
Council in Lisbon proclaimed, “Looking to the end of 2014, Afghan forces will be assuming full responsibility for
security across the whole of Afghanistan.”
6
  The Alliance based its analysis on organizational assessments conducted by USAID, Afghanistan’s Ministry of
Finance, GRM International (a development management company), Deloitte, MAIL, and The Asia Foundation.
7
  Solar year 1388 is the Afghan government’s fiscal year from approximately March 22, 2009, to March 21, 2010.
8
  See GAO, Afghanistan Development: Enhancements to Performance Management and Evaluation Efforts Could
Improve USAID’s Agriculture Programs, GAO-10-368 (Washington, DC: July 14, 2010).
SIGAR Audit-12-1 Governance and Development/Agriculture                                                    Page 3
U.S. Agriculture Capacity Building Programs

According to the U.S. Agriculture Strategy, USDA, USAID, and DOD’s ADTs have responsibility for building
MAIL’s capacity to deliver services and promote the private sector. 9 USDA and USAID have committed
$77 million for capacity-building activities in their agricultural programs from fiscal years 2010 and 2011
appropriations. USDA oversees the U.S. government’s principal program for building MAIL’s capacity—
the 3-year, $36 million Capacity Building Change Management Program. 10 The program aims to
(1) develop the capacity of MAIL to manage donor and Afghan government funds and its human and
physical capital and (2) design and implement a program of change management to build the technical
capacity of MAIL. Nine of USAID’s 18 active agricultural programs in fiscal year 2010 have at least a
small capacity-building component; more than half of these expire in fiscal year 2011. USAID estimates
these capacity-building activities cost $41 million, or 4 percent, of total agricultural programming. 11
Described in more detail in appendix II, these programs are:

    •    Agricultural Credit Enhancement
    •    Advancing Afghan Agriculture Alliance
    •    Accelerating Sustainable Agriculture Program
    •    Afghanistan Vouchers for Increased Production in Agriculture-Plus
    •    Afghanistan Water, Agriculture, and Technology Transfer
    •    Commercial Horticulture and Agricultural Marketing Program
    •    Incentives Driving Economic Alternatives for the North, East, and West
    •    Improving Livelihoods and Governance through Natural Resource Management
    •    Pastoral Engagement, Adaptation, and Capacity Enhancement

Future U.S. agricultural programs will place a greater emphasis on building MAIL’s capacity in some of its
most important departments. 12 These programs include USDA’s agricultural extension program,
USAID’s agricultural research and extension program, and a capacity-building component within the U.S.
government irrigation and watershed management program. USDA and USAID expect to award
cooperative agreements for these programs in fiscal year 2011 or early fiscal year 2012.


9
  DOD’s provincial reconstruction teams and village stability operations teams are also engaged in efforts to rebuild
Afghanistan’s agriculture sector; however, they were not included in the scope of the audit because the U.S.
Agriculture Strategy did not identify them as having responsibility for building MAIL’s capacity. In addition, the
State Department’s Bureau for International Narcotics and Law Enforcement Affairs and the U.S. Army Corps of
Engineers, which also provide agriculture assistance to Afghanistan, were not included in the scope of this audit,
though they provide agriculture assistance, because they do not implement MAIL’s capacity-building activities.
10
   USDA awarded the cooperative agreement to the Volunteers for Economic Growth Alliance in November 2010.
Originally awarded for four years, USDA officials have indicated that they reduced the program to three years at
the same funding level.
11
   This figure includes the capacity-building components of the Advancing Afghan Agriculture Alliance program;
Accelerating Sustainable Agriculture Program; Afghanistan Water, Agriculture, and Technology Transfer program;
Commercial Horticulture and Agriculture Marketing Program; and Incentives Driving Economic Alternatives for the
North, East, and West program. USAID did not include the four other agricultural programs we identified as having
a capacity-building component in their estimate. We were unable to determine the amount of funding dedicated
to those programs’ capacity-building components.
12
   Funding for future agriculture programs are considered sensitive and cannot be released publicly.
SIGAR Audit-12-1 Governance and Development/Agriculture                                                      Page 4
In addition to their capacity-building programs, USDA, USAID, and DOD deploy about 160 personnel
across Afghanistan at any one time on a rotational basis who help, as part of their duties, to build MAIL’s
capacity at the ministry and in the provinces and districts. 13 At an annual cost that ranges between
$425,926 and $570,998 per year to support a civilian in the field, the U.S. government spends at least
$80 million per year to support these personnel. 14 In July 2011, USDA had 47 agricultural advisors to
train and mentor MAIL and DAIL staff in project management and agricultural techniques and advise
military units, other U.S. agencies, and international donors on their agricultural activities. USDA
agricultural advisors are embedded at the ministry in Kabul and attached to regional commands, task
forces, provincial reconstruction teams, and district support teams. According to USDA, from April 2010
to March 2011, agricultural advisors trained on average about 370 MAIL and DAIL staff each quarter,
and an estimated 24,000 farmers were trained in that year. 15 As of June 2011, USAID had seven field
program officers to advise provincial reconstruction teams and district support teams on agriculture
projects and on coordination with the Afghan government and international donors. 16 Currently, DOD
deploys nine ADTs—eight in eastern Afghanistan and one in southern Afghanistan. An ADT is a National
Guard unit typically composed of an agricultural expert team of 12 soldiers and airmen, a headquarters
section, and its own security force. According to several ADT commanders, their missions have largely
evolved from building agricultural infrastructure and training farmers to emphasizing increasing MAIL’s
capacity at the provincial and district levels. 17 For example, ADTs worked with the DAIL and agricultural
extension agents to develop budgets and manage development projects funded through the
Commander’s Emergency Response Program. The 2011 CDDEA review reported that ADTs had initiated
578 Commander’s Emergency Response Program projects in 2010, with a total value of $9.9 million, and
completed 413 projects.


COORDINATION IN KABUL HAS IMPROVED BUT SEVERAL FACTORS CONTINUE TO HAMPER
INTEGRATION OF U.S. CAPACITY-BUILDING EFFORTS

Despite some improvement in coordination between USDA and USAID in Kabul, U.S. agencies continue
to have difficulty coordinating and integrating their agriculture capacity-building efforts both between
Kabul and the provinces and with some USAID implementing partners in the same geographic area. For
example, U.S. personnel in the field were unaware of capacity-building activities at the ministry in Kabul
and, therefore, could not ensure they were building the same capabilities in provinces and districts as
those in Kabul. Several factors contribute to these coordination challenges, such as insufficient guidance
to those implementing capacity-building activities, ineffective use of existing coordination mechanisms,
and incomplete devolution of administrative and programmatic authority to USAID field program

13
   This number includes USDA agricultural advisors, USAID agricultural field program officers, and ADT agricultural
specialists. It does not include ADT security force personnel because they do not directly implement agricultural
activities or USAID generalist field program officers.
14
   See SIGAR and State OIG, The U.S. Civilian Uplift in Afghanistan Has Cost Nearly $2 Billion, and State Should
Continue to Strengthen Its Management and Oversight of the Funds Transferred to Other Agencies, SIGAR Audit-
11-17 & State OIG AUD/SI-11-45 (Washington D.C., September 8, 2011). The $80 million per year is an estimate.
15
   According to USDA, some duplication in the number of farmers trained is likely because many attended more
than one training opportunity and, therefore, were counted more than once. We did not conduct an independent
data reliability assessment of the data.
16
   USAID had a total of 185 field program officers throughout Afghanistan, but only seven were specifically
dedicated to agricultural programs, as of June 2011.
17
   The ADT Handbook and the National Guard Bureau, which is the program manager for ADTs, states that the ADT
mission is to provide basic agricultural education and services and conduct stability operations to support the
effectiveness of the Afghan government. See Center for Army Lessons Learned, Agribusiness Development Teams
in Afghanistan: Tactics, Techniques, and Procedures, No.10-10 (November 2009).
SIGAR Audit-12-1 Governance and Development/Agriculture                                                     Page 5
officers. Without effective coordination and integration of U.S. capacity-building efforts, U.S. agencies
cannot be assured their programs and activities are well aligned or mutually reinforcing, which the
U.S. agriculture strategy indicates is necessary to achieve a common objective.

U.S. Agencies Continue to Have Difficulty Coordinating Despite Some Improvement

Although coordination among agencies in Kabul has improved somewhat since the U.S. Embassy
reorganized U.S. agriculture assistance in November 2010, U.S. agencies continue to have difficulty
achieving the level of coordination needed to integrate their capacity-building efforts. The
U.S. agriculture strategy calls for integrating multiple agencies’ human, technical, financial, and material
assets to achieve a common objective. Achieving this level of integration requires coordination among
civilian agencies and military forces at all levels. The CDDEA, the Senior Agriculture Coordinator, and
other U.S. officials in Kabul and the field characterized U.S. agriculture assistance as disparate activities
that did not constitute a strategic, sustained approach to achieving U.S. strategic objectives. Without
effective coordination, U.S. agencies may be missing opportunities to leverage or build on other
agencies’ capacity-building activities, thus limiting the U.S. Embassy’s ability to maximize the synergism
of multiple agencies’ capacity-building efforts.

The steps the U.S. Embassy took in November 2010 has led to closer coordination between USDA and
USAID in Kabul and improvements to the management and effectiveness of U.S. agriculture assistance.
Specifically, we found that USDA and USAID officials have more closely coordinated their respective
agricultural research and extension and watershed management programs through Agriculture Working
Group teams. The restructured Agriculture Working Group has become a mechanism for vetting major
agriculture programs before the U.S. Ambassador reviews them. Previously, the U.S. Embassy expressed
concerns about proposed program designs, citing in part concerns over duplications of effort. Because
of their closer coordination, USDA and USAID are combining their watershed management programs
into the U.S. government Irrigation and Watershed Management program and de-conflicting their
agricultural research and extension programs to ensure there will be no overlap in the programs.
Additionally, a USAID staff member provides advice as a member of the advisory board of USDA’s
Capacity Building Change Management Program. The advisory board is the decision-making body that
monitors program implementation.

Nevertheless, we found instances where U.S. agencies continued to have difficulty achieving the level of
coordination between Kabul and the provinces needed to integrate capacity-building activities.
Specifically, we found that U.S. agencies were implementing capacity-building activities in provinces and
districts with limited knowledge of what was being done to build capabilities at the ministry in Kabul,
even though the U.S. government has emphasized the importance of strengthening the relationship
between MAIL in Kabul and provincial DAILs. None of the USDA, USAID, or ADT personnel in provinces
and districts we met with were aware of USDA’s Capacity Building Change Management Program, the
principal U.S. program to build MAIL’s capacity, or the work of USDA’s embedded ministerial advisors
and vice versa. As a result, USDA agricultural advisors and ADTs were helping build DAIL’s capacity to
plan, develop, and execute a provincial budget without an awareness of the financial management
capabilities that USDA was helping the Ministry to develop in Kabul, including the capability to disburse
development assistance to the provincial and district levels. 18

Additionally, we found instances where USDA agricultural advisors and ADTs had difficulty coordinating
with some USAID implementing partners operating in the same geographic area. In Nangarhar, for

18
 During the course of our audit, USDA officials at the U.S. Embassy in Kabul began participating in biweekly ADT
conference calls.
SIGAR Audit-12-1 Governance and Development/Agriculture                                                     Page 6
instance, USDA and ADT personnel said that they did not always know what specific training
opportunities USAID implementing partners had already provided to DAIL staff or which staff had
attended. Consequently, they had no way of knowing whether they were duplicating training
opportunities or inadvertently excluding staff, and they may have missed opportunities to build on what
DAIL staff had already learned. Furthermore, implementing partners report on their capacity-building
activities to contracting/agreement officer’s technical representatives, almost all of whom are in Kabul,
and this information frequently was not disseminated to USAID field program officers. This
consequently limited the visibility of field advisors over those activities and ultimately may have
hampered their ability to facilitate coordination with other agencies in the area.

Although we found coordination to be good between USDA agricultural advisors and ADTs that were co-
located, U.S. Embassy and USAID officials in Kabul expressed concern over the extent of strategic
coordination among U.S. civilian agencies and military forces. During our fieldwork in Mazar-e-Sharif
and Nangarhar, we observed USDA agricultural advisors and ADT personnel sharing information and
planning capacity-building activities. In addition, USDA agricultural advisors often relied on ADTs for
transportation and security to travel to locations to conduct capacity-building activities with DAIL staff.
However, the CDDEA report on U.S. agricultural assistance noted that activities could be better
coordinated strategically and recommended discussion between the U.S. Embassy and U.S. Forces-
Afghanistan on the composition, location, and duration of ADTs.

Several Factors Hamper Agencies’ Ability to Coordinate and Integrate Their Capacity-Building
Efforts

The difficulties that U.S. agencies continue to have in coordinating and integrating their capacity-
building efforts can be partly attributed to several factors. First, the U.S. Embassy has not clearly
defined the set of conditions required to successfully build MAIL’s capacity, and consequently, U.S.
personnel managing and implementing capacity-building activities do not have sufficient guidance for
ensuring their efforts are linked to the overall U.S. effort. Second, U.S. agencies are not effectively using
the Agriculture Working Group to share information because ADTs are not members and headquarters-
level liaisons do not regularly participate in the working group meetings. Third, USAID is devolving some
administrative and programmatic authority to designated field program officers that can help ensure
implementing partners’ activities support the overall U.S. effort, but the process has not been
completed.

Insufficient Guidance Hinders Agencies’ Efforts to Integrate Capacity-Building Activities

USDA, USAID, and ADTs manage and implement numerous ministerial capacity-building activities
throughout the provinces in Afghanistan, but they do not have sufficient guidance to ensure their
individual efforts are linked to the overall U.S. effort in agriculture. Almost all of the USDA agricultural
advisors, USAID field program officers, and ADT personnel we spoke with said that they did not have
guidance on how to implement their capacity-building activities or, for ADTs, how to integrate their
activities with civilian efforts. Furthermore, several USAID implementing partners stated that they did
not have sufficient guidance from USAID to adequately plan their DAIL capacity-building to fit into an
overall U.S. effort. Without such guidance, several ADT and USDA officials were concerned that their
capacity-building efforts were disconnected from the overall U.S. effort and questioned whether the
progress they made in building MAIL’s capacity at the provincial and district levels would be sustainable
in the long term.




SIGAR Audit-12-1 Governance and Development/Agriculture                                               Page 7
The Government Performance and Results Act of 1993 provides management principles for ensuring
U.S. programs are well aligned, closely coordinated, and mutually reinforcing. 19 They include
(1) identifying long-term goals and objectives, (2) providing a description of specific actions to achieve
stated goals and objectives, and (3) identifying a timetable with milestones for achieving those goals and
objectives, among others.

While we found that the U.S. agriculture strategy and other guiding documents incorporated some of
these elements, they did not provide a sufficient description of the specific tasks or intermediate
milestones for building MAIL’s capacity at the Ministry or in provincial offices. For example, the
U.S. agriculture strategy and the Integrated Civilian-Military Campaign Plan identify improving MAIL’s
ability to deliver services to farmers and herders as a strategic objective, but neither document identifies
which services MAIL is expected to deliver. According to an official from the Interagency Provincial
Affairs office, USDA agricultural advisors at the regional, provincial, and district levels did not know what
actions were needed to successfully build MAIL’s capacity because the strategy’s objectives were too
broad. In addition, the 2011 Integrated Civilian-Military Campaign Plan establishes the timeframe of
12 to 18 months to strengthen MAIL’s capacity to effectively deliver services to farmers, but does not
define the set of conditions that would demonstrate successful achievement of this objective.

Without guidance on the specific set of conditions required for success, SIGAR found that U.S. agencies
defined their own end states for their individual efforts and conducted capacity-building activities based
on the core competencies they identified and prioritized. For example, one ADT commander tasked his
team to create a list of DAIL core competencies that they would help build because they had not
received national-level guidance on what capabilities were needed. We found U.S. personnel
sometimes had differing opinions about what U.S. capacity-building efforts were intended to
accomplish, with some officials thinking the purpose was to improve MAIL’s ability to better manage
donor funding and others believing it was to provide better agricultural services in the provinces and
districts. Although both may be necessary to build a capable ministry, understanding how these efforts
are linked and prioritized is necessary for ensuring U.S. agencies emphasize and pursue the appropriate
activities.

Existing Coordination Mechanisms Are Not Used Effectively

Strategic coordination between U.S. civilian agencies and ADTs has been limited because they are not
effectively using existing coordination mechanisms to disseminate information and guidance on building
MAIL’s capacity. Establishing and effectively using coordination mechanisms to facilitate frequent
communication, a key practice for enhancing interagency coordination, is particularly important because
ADTs and civilian personnel fall under separate chains of command. ADTs are under the command and
control of the brigade combat team commander assigned to their respective areas. As such, they report
to and receive guidance through their military chain of command. On the other hand, U.S. personnel in
the field report to and receive guidance from the U.S. Embassy’s Interagency Provincial Affairs office.

Several mechanisms could facilitate coordination among civilian agencies and military forces, such as the
Agriculture Working Group and the National Guard Bureau’s biweekly teleconference with ADTs. During
the course of our audit, we found that all relevant stakeholders did not participate in these meetings on
a regular basis or just started participating recently. In November 2010, the U.S. Embassy restructured
the Agriculture Working Group to be a more effective means of communicating and coordinating across
U.S. agencies in Kabul and the field. We found that representatives from ISAF Joint Command and
Regional Command-East did not regularly participate in the working group’s weekly meetings and ADTs

19
     Pub.L. No.103-62
SIGAR Audit-12-1 Governance and Development/Agriculture                                               Page 8
were not members. As a result, they could not receive or share key information about other U.S.
capacity-building efforts, priorities, or challenges. In addition, we found that ISAF Joint Command and
Regional Command-East headquarters officials who are responsible for ADT issues do not regularly
participate in these working group meetings. In June 2011, ADTs formally requested that they be
included in the Agriculture Working Group through a designated headquarters-level liaison, and the
chair of the working group said that he would consider their request to determine the level of
involvement they were requesting. The Interagency Provincial Affairs office also began participating in
the National Guard Bureau’s biweekly teleconference with all nine ADTs in July 2011.

USAID Has Not Completed Its Process of Devolving Authority to Field Program Officers

The difficulties that USDA agricultural advisors and ADTs experienced in coordinating with some USAID
implementing partners can be partly attributed to the fact that USAID has not completed its process of
devolving administrative and programmatic authority to field program officers. USAID began this
process in September 2010 to use field program officers to help ensure development resources are used
strategically and to help manage and oversee implementing partners. As of July 2011, they are
devolving authority to field program officers in the Regional Command East to assist in program
oversight. Unless designated an activity manager, USAID field program officers do not have the
authority to guide or direct implementing partners to ensure their activities are coordinated or
integrated with other U.S. capacity-building efforts. Once designated, field program officers will have
responsibility for the day-to-day oversight of one or more specific activities and for communicating
programmatic information to the contracting/agreement officer’s technical representative. Not all field
program officers will be designated an activity manager, according to a USAID official.

One limitation on the visibility that USAID field program officers have over implementing partners’
capacity-building activities is the large number of programs they need to be familiar with in a given
geographic area. As previously discussed, only seven field program officers are dedicated to USAID
agricultural programs. The other 178 field program officers are expected to be familiar with all USAID
programs in their areas. The field program office in Nangarhar, for example, is responsible for
monitoring 27 USAID programs, five of which are agricultural programs that help build the DAIL’s
capacity.


THE U.S. EMBASSY FACES DIFFICULTY ASSESSING PROGRESS IN BUILDING MAIL’S CAPACITY

The U.S. Embassy has not been able to determine how much progress has been made to date in building
ministry capacity because they did not have sufficient or complete data. The Agriculture Campaign
Assessment does not include USDA agricultural advisors’ and ADTs’ capacity-building activities, and the
performance data that agencies collect is not consistent, thereby making it difficult for the U.S. Embassy
to incorporate them into their assessment. Moreover, the Agriculture Campaign Assessment does not
have performance baselines and targets for all of their performance indicators, and it largely measures
the products of capacity-building efforts, rather than the results achieved. Without a mechanism that
can sufficiently and reliably assess and report on progress made in building MAIL’s capacity, the U.S.
Embassy cannot determine whether the strategy is working and resources are properly aligned.
Without being able to assess progress, these agencies cannot identify what changes are needed to
improve the effectiveness of their programs and ensure sustainable results.




SIGAR Audit-12-1 Governance and Development/Agriculture                                            Page 9
The U.S. Embassy Does Not Have Sufficient Data to Determine Progress Made in Building
MAIL Capacity

Although the U.S. Embassy reports on progress toward building MAIL’s capacity to deliver services and
promote the private sector through the Agriculture Campaign Assessment, the September 2010 and
March 2011 assessments did not have sufficient data to assess how much overall progress U.S. agencies
had made to date. 20 The primary purpose of the campaign assessment process is to provide U.S.
leadership in Afghanistan with a series of assessments that can be used to prioritize and readjust the
allocation of resources and efforts strategically. The Agriculture Campaign Assessment measures the
performance of U.S. capacity-building efforts in improving agricultural education systems, agricultural
research and extension services, and MAIL’s core function through performance indicators, which are
particular characteristics used to observe progress and measure actual results compared to expected
results. The Agriculture Campaign Assessment performance indicators were:

     •   Percentage of foreign direct assistance processed and managed by MAIL
     •   Percentage increase in the number of applications for service delivery across targeted
         directorates (March 2011 only)
     •   Number of advanced degrees received as a result of U.S. assistance
     •   Number of farmers accessing agricultural extension services
     •   Number of agricultural extension staff trained in new techniques
     •   Number of national research stations and labs built or rehabilitated (September 2010 only)
     •   Number of MAIL officials trained at the provincial and district levels (September 2010 only)
     •   Number of new technologies made available for transfer (September 2010 only)
     •   Decrease in the number of steps involved in MAIL’s procurement process (September 2010 only)
     •   Percentage of benchmarks achieved for U.S. direct assistance (September 2010 only)

Based on the September 2010 and March 2011 Agriculture Campaign Assessments, the U.S. Embassy
could only demonstrate progress in the number of advanced degrees received because of U.S.
government assistance. Between 2009 and December 2010, the number of advanced degree candidates
increased from 0 to 27. According to a USAID official, the U.S. Embassy did not have sufficient
performance data to determine how much progress had been made for the other performance
indicators in the September 2010 and March 2011 assessments. In the September 2010 assessment, the
U.S. Embassy reported on three of its nine indicators, but we found that the U.S. Embassy did not have
data to support the reported increase in the number of farmers accessing extension services, number of
advanced degrees received, and the number of extension staff trained in new techniques. In March
2011, the U.S. Embassy only reported on one of its five indicators—the number of advanced degrees
received. USAID officials explained that performance data were not available to assess performance
indicators because the agriculture programs that were to supply the data were either too new to have
collected it or had not yet begun operations. Planned future agricultural programs discussed earlier in
this report are supposed to provide this performance data, and we recognize that performance data for
new and future programs should be available when necessary.



20
  The U.S. Embassy did not assess or report on U.S. capacity-building efforts prior to the September 2010
Agriculture Campaign Assessment.
SIGAR Audit-12-1 Governance and Development/Agriculture                                                     Page 10
Several Factors Undermine the Reliability of the Agriculture Campaign Assessment

The U.S. Embassy will have difficulty assessing progress in building MAIL’s capacity in the future because
the Agriculture Campaign Assessment does not provide a reliable evaluation of the overall impact of
U.S. capacity-building efforts at MAIL. Specifically, it does not assess progress made because of the
capacity-building efforts of USDA agricultural advisors and ADTs, who have primary responsibility for
building MAIL’s capacity in provinces and districts. Because the assessment is missing some
performance baselines and targets and largely measures performance outputs, the U.S. Embassy will
have difficulty assessing the degree of change in MAIL’s performance over time.

Not All U.S. Capacity-Building Activities Are Included in the Agriculture Campaign Assessment

The Agriculture Campaign Assessment does not include all U.S. agencies’ activities that contribute to
building MAIL’s capacity. Specifically, we found that the Agriculture Campaign Assessment does not
assess the activities of USDA’s agricultural advisors and DOD’s ADTs, even though USDA and ADTs have
primary responsibility for building MAIL’s capacity at the sub-national level according to the
U.S. agriculture strategy. The Agriculture Campaign Assessment is based on USAID’s Mission
Performance Management Plan, which only measures the performance of USAID’s and USDA’s capacity-
building programs. 21 By not including information on USDA and ADT activities, the U.S. Embassy is
missing key information on progress made in building the capacity of provincial DAILs. In addition, the
Mission Performance Management Plan only identifies a single source of data for each performance
indicator. For example, USAID’s future program on agricultural research and extension is the only
program designated to provide performance data on improving Afghan government agricultural
research and extension services, yet USDA will also have a program focused on building agricultural
extension services. USAID guidance on performance management recognizes that while individual
projects and activities produce specific outcomes, it takes the combined efforts of several projects to
produce a sustainable impact.

The U.S. Embassy will have difficulty incorporating performance data from USDA and ADTs into the
Agriculture Campaign Assessment because U.S. agencies do not consistently collect or report their
performance data. USAID performance management guidance states that data collection methods
should be consistent and comparable over time. USAID, USDA, and ADTs individually collect and report
on the performance of their respective capacity-building efforts. We found that they differed in both
what they were measuring and how they were measuring performance. For example, the ADTs we met
with measured the capacity of DAIL staff through color-coded assessments, while USAID measured the
performance of its capacity-building programs in quantitative terms. These inconsistencies in agencies’
data collection methods can be attributed in part to a lack of common performance indicators and
standard definitions. ADTs individually determined how they assessed progress in building MAIL’s
capacity. USDA headquarters in Washington, D.C., which collects and compiles data from agricultural
advisors in Afghanistan, determined their performance categories without input from the U.S. Embassy.
USAID and ADT officials raised concerns about measuring progress toward building MAIL’s capacity
without standard measures in part because the assessment process can be subjective. USDA’s guidance
to its field personnel notes that the performance data collected should reflect the perspectives of field
personnel based on their observations and best estimates, rather than the actual facts on the ground.
USAID guidance notes that measuring institutional capacity is by nature subjective when it is based on

21
 A Mission Performance Management Plan is a tool typically used by USAID to plan and manage the process of
assessing and reporting progress toward an assistance objective, as required in the Automated Directives System
203.3.3. The U.S. Embassy issued the U.S. Foreign Assistance for Afghanistan Post Performance Management Plan
2011-2015 in October 2010.
SIGAR Audit-12-1 Governance and Development/Agriculture                                                Page 11
perceptions and judgment, but subjectivity can be mitigated by clearly defining the capacity being
measured and the criteria against which it is being judged.

Another challenge is that the U.S. Embassy does not have access to ADT information. For example, the
performance assessments that the ADTs in Parwan and Nangarhar conducted each quarter were only
provided to their brigade commanders, and not the U.S. Embassy. In addition, according to a USAID
official, the ISAF Joint Command is expected to provide information on ADT agriculture activities into
USAID’s performance management database, but command officials said that they do not collect
agriculture-related data unless requested. 22

U.S. Embassy Indicators Lack Some Performance Baselines and Targets

Although the Agriculture Campaign Assessment has identified some performance baselines and targets,
we found that the performance indicators related to improving MAIL’s core functions are missing, which
could limit the U.S. Embassy’s ability to monitor progress over time and make program adjustments. 23
The U.S. Embassy with the help of USAID took steps to identify baselines and targets between the
September 2010 and March 2011 campaign assessments. While the September 2010 assessment had
baseline data for only half of its indicators and targets for a third, the March 2011 Agricultural Campaign
Assessment had baseline data and performance targets for three of its five performance indicators. The
baselines and targets missing from the March 2011 assessment are for the indicators measuring the
percentage of foreign direct assistance that is processed and managed by MAIL and the percentage
increase in the number of applications for service delivery. Both indicators are associated with USDA’s
Capacity Building Change Management Program, which, as of June 2011, did not have an approved
performance management plan to supply that information. We recognize that performance indicators
for new agricultural programs will have to be finalized before baselines and targets can be established.

U.S. Embassy Indicators Measure Outputs, Not Outcomes

The Agriculture Campaign Assessment measures program outputs, rather than outcomes achieved
because of those programs, which makes it difficult to recognize and quantify change in MAIL’s
performance. The Government Accountability Office defines an output as the product or service
delivered by a program, while an outcome is the result of those products and services. 24 Although
output indicators provide a measure of a program’s deliverables, they are unlikely to demonstrate the
effect on the delivery or quality of agriculture-related public services. For example, the number of
advanced degrees received quantifies how many students graduated, but does not measure the quality
of the education they received or whether the recipient of the advanced degree contributes to
agriculture-related public services. USDA agriculture advisors in eastern and northern Afghanistan
expressed concern that measuring outputs, such as the number of officials trained, does not provide an
effective assessment of progress. A senior USAID official explained that indicators are initially more
focused on output measures because of the time it takes to generate outcome or impact data, but
should evolve over the course of program implementation. In commenting on the findings of this audit,
a senior Agriculture official from the Embassy noted that although output measures are not sufficient,
they are integral to tracking progress toward outcomes.

22
   ISAF Joint Command directs the day-to-day operations of coalition forces across Afghanistan.
23
   A performance baseline is the value of a performance indicator prior to implementation of U.S.-funded activities,
which serves as a starting point from which to measure the degree of change. A performance target, which is the
result that an agency plans to achieve within a specific timeframe, serves as a guidepost for judging whether
progress is being made on schedule and at the levels originally envisioned.
24
   GAO, Performance Measurement and Evaluation: Definitions and Relationships, GAO-11-646SP (Washington,
D.C.: May 2011).
SIGAR Audit-12-1 Governance and Development/Agriculture                                                    Page 12
CONCLUSION

Building MAIL’s capacity is critical to ensuring the long-term success and sustainability of the substantial
U.S. investment in Afghanistan’s agriculture sector. U.S. agencies have provided $77 million for
capacity-building activities in their fiscal year 2010 and 2011 agricultural programs, and they plan to
obligate significantly more funding for capacity-building in the next fiscal year. In addition, U.S. agencies
deploy about 160 personnel across Afghanistan at any one time on a rotational basis to help accomplish
this strategic objective. The U.S. Embassy has taken steps to better coordinate and integrate these
programs and activities, but U.S. agencies continue to implement numerous programs and activities
without sufficient guidance on the actions needed to successfully achieve the U.S. strategic objective of
building MAIL’s capacity and effective means of evaluating their efforts. The absence of sufficient
guidance, effective coordination mechanisms, and reliable evaluation tools not only reduces the U.S.
Embassy’s ability to capitalize on individual agencies’ efforts, but also limits the U.S. Embassy’s ability to
make necessary strategic and programmatic changes. Taking steps to better coordinate and assess
U.S. capacity-building efforts is critical to ensuring MAIL has the capacity it needs to manage and sustain
the agricultural programs that the United States and other donors have put in place, ensure food
security, and foster sufficient economic growth to lessen the Afghan government’s dependence on
donor assistance.


RECOMMENDATIONS

We are making five recommendations to improve management and integration of U.S. efforts to build
MAIL’s capacity throughout Afghanistan.

To improve the integration and coordination of U.S. capacity-building efforts, we recommend the
U.S. Ambassador to Afghanistan, in coordination with MAIL:

    1. Develop a MAIL capacity-building implementation plan to provide guidance for programs with
       MAIL and DAIL capacity-building components that defines and articulates an end state for MAIL
       capacity building, identifies core competencies and their standards, and establishes priorities
       and critical milestones. This plan should include regular progress reporting.

To more closely integrate ADT capacity-building activities with those of civilian agencies, we recommend
the U.S. Ambassador to Afghanistan:

    2. Improve coordination and integration mechanisms with ADTs by disseminating information and
       guidance to ADTs through a designated military liaison to implement U.S. MAIL capacity-building
       activities in a coordinated civilian-military manner. The dissemination of this information and
       guidance should be done formally and systematically.

To more accurately and consistently measure civilian-military progress made in building MAIL’s capacity
in Kabul and in the provinces, we recommend that the U.S. Ambassador to Afghanistan, in conjunction
with the USAID Mission Director, USDA, the Office of Interagency Provincial Affairs, and the ISAF Joint
Command:

    3. Establish common indicators and standard definitions for assessing capacity-building efforts
       throughout MAIL and direct U.S. agencies to collect and report on those indicators to the
       U.S. Embassy;


SIGAR Audit-12-1 Governance and Development/Agriculture                                               Page 13
    4. Establish performance baselines and targets for all performance indicators in the Agriculture
       Campaign Assessment and the Mission Performance Management Plan; and
    5. Include capacity-building activities from USDA agricultural advisors, ADTs, and relevant USAID
       programs in the Agriculture Campaign Assessment.


COMMENTS

The U.S. Embassy Kabul provided written comments on a draft of this report. These comments are
reproduced in appendix III. In its response, the U.S. Embassy concurred with each of the five
recommendations.

    •   In response to recommendation one, the Embassy is defining MAIL capacity-building
        implementation plans and identifying core competencies of field DAIL extension agents and DAIL
        directors. The Embassy also noted it plans to hold a Field Agriculture Advisors Conference in
        October where actions in response to several recommendations will be addressed, including
        assisting in the establishment of common definitions for indicator data and identifying core
        competencies.
    •   In response to recommendation two, the Embassy stated that the Embassy Agriculture Team
        includes a Civilian-Military Coordination Team and two DOD officers are embedded among its
        Interagency Provincial Affairs staff. It also noted that the Embassy Agriculture Team would hold
        a conference in October focusing on capacity building.
    •   In response to recommendation three, the Embassy is revising the Agriculture Performance
        Management Plan to include ADT and USDA advisor efforts, and addressing the data collection
        issues and the use of common indicators. The October conference mentioned above will assist
        in establishing common indicators.
    •   In response to recommendations four and five, the Embassy concurred, but did not provide any
        additional detail about how it would proceed.

The Embassy also provided general comments, which we have incorporated in this report, as
appropriate. ISAF Command and the U.S. Central Command did not formally comment on the draft
report, but provided technical comments, which we have incorporated, as appropriate.




SIGAR Audit-12-1 Governance and Development/Agriculture                                          Page 14
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of U.S. assistance to build the capacity of the Afghan Ministry of
Agriculture, Irrigation, and Livestock (MAIL). We focused on the fiscal years 2010 and 2011
capacity-building programs and activities of the U.S. Department of Agriculture (USDA), the U.S. Agency
for International Development (USAID), and the Department of Defense’s agribusiness development
teams (ADT). We did not include activities conducted by provincial reconstruction teams or village
stability operations teams. We assessed (1) the extent to which U.S. capacity-building programs and
activities in agriculture are coordinated and integrated and (2) progress made in building MAIL’s capacity
in Kabul and at its provincial offices.

To assess the extent to which capacity-building programs and activities are coordinated and integrated
among U.S. agencies, we reviewed U.S. strategic documents, such as the U.S. Government’s Agriculture
Assistance Strategy for Afghanistan (2009) and the U.S. Integrated Civilian-Military Campaign Plan
(2011); operational and campaign plans; and USAID and USDA program contracts, agreements, work
plans, and performance reports. In Kabul and in the provinces, we conducted interviews with officials
from the U.S. Embassy, USDA, USAID, ADTs, the International Security Assistance Force, and MAIL, as
well as representatives from implementing partners. Additionally, we observed Agriculture Working
Group meetings and attended two conferences: an Agriculture Shura in November 2010 and an ADT
Conference in March 2011. To evaluate the level of coordination and integration between the national
and sub-national levels and identify challenges, we conducted fieldwork at Regional Command-East and
North headquarters and forward operating bases in Balkh and Nangarhar provinces. We selected these
locations based on criteria we established on the number of U.S. government personnel and the number
of U.S. agricultural programs that help build MAIL’s capacity. At each location, we obtained
documentation and conducted interviews on capacity-building activities, guidance, coordination, and
reporting mechanisms. We also observed the ADT in Nangarhar conducting capacity-building activities
in the Jalalabad area. To calculate the cost of agriculture advisors deployed in the field, we multiplied
the number of deployed advisors by $500,000, approximately the average cost of deploying a civilian in
Afghanistan for one year, as reported by SIGAR and State Office of the Inspector General. 25

To determine the extent to which U.S. agencies have made progress in building MAIL’s capacity, we
examined the September 2010 and March 2011 assessments of the Agriculture Campaign Assessment,
which were the only two assessments that reported on progress made in achieving the U.S. Government
Agriculture Assistance Strategy for Afghanistan’s strategic objective of building MAIL’s capacity. We
used the Agriculture Campaign Assessment because it was the mechanism by which the U.S. Embassy
was assessing progress made in achieving the U.S. Government Agriculture Assistance Strategy for
Afghanistan. We also examined USAID’s Mission Performance Management Plan (PMP) because it
served as the basis for the Agriculture Campaign Assessment’s performance indicators and performance
data. To assess internal controls for reporting performance data we analyzed the performance
indicators, baselines, and targets, as well as the sources of the performance data used to assess
progress. We also conducted interviews with U.S. Embassy and USAID officials responsible for
developing and managing the Agriculture Campaign Assessment and the Mission PMP. To determine
other performance assessments and sources of performance data, we interviewed officials from the
U.S. Embassy, USDA, USAID, ADTs, and International Security Assistance Force Joint Command in Kabul,
at regional commands, and at the provincial and district levels. Based on these interviews, we collected

25
     SIGAR Audit-11-17 & State OIG AUD/SI-11-45.


SIGAR Audit-12-1 Governance and Development/Agriculture                                           Page 15
documentation and analyzed USDA and ADT performance assessments to determine how consistently
U.S. agencies measured progress in building MAIL’s capacity. We relied on data provided by U.S.
agencies to determine and allocate program costs and personnel deployments and did not
independently validate these data.

We conducted work in Washington, D.C., and Kabul, Nangarhar Province, and Balkh Province,
Afghanistan, from October 2010 to September 2011 in accordance with generally accepted government
auditing standards. These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. The audit was conducted by the Office of the Special
Inspector General for Afghanistan Reconstruction under the authority of Public Law No. 110‐181, as
amended, the Inspector General Act of 1978, and the Inspector General Reform Act of 2008.




SIGAR Audit-12-1 Governance and Development/Agriculture                                        Page 16
APPENDIX II: USAID AGRICULTURAL PROGRAMS THAT CONTRIBUTE TO BUILDING MAIL’S
CAPACITY

In fiscal year 2010, the U.S. Agency for International Development (USAID) oversaw the implementation
of 18 agricultural programs. Based on our review of contracts, cooperative agreements, and other
program documents, we found that nine of these programs, totaling $833 million, had a capacity-
building objective, as shown in table I. USAID estimated that the capacity-building activities in five of
these programs cost $41.1 million. USAID did not calculate the cost of capacity-building activities in the
four other agricultural programs that we identified as helping to build MAIL’s capacity, and we were
unable to determine the amount of funding because data was not available for individual program
activities.


Table I: USAID Agricultural Programs with Capacity-Building Objectives in Fiscal Year 2010
Program                      Performance     Estimated      Capacity-    Capacity-Building Objective
                             Period          Total Cost      Building
                                             ($ million)     Funding
                                                           ($ million)

Agricultural Credit          2010-2014          $49.1           NA       Support MAIL in better coordinating and
Enhancement                                                              rationalizing donor-funded rural and
                                                                         agricultural initiatives.

Advancing Afghan             2006-2011            7.0          $7.0      Link university agriculture faculties’
Agriculture Alliance                                                     development efforts to MAIL.

Accelerating Sustainable     2006-2011          133.0          20.0      Improve the Afghan government’s
Agriculture Program                                                      capacity to formulate agriculture sector
                                                                         policies and strategies and carry out
                                                                         administrative and financial
                                                                         coordination for competitive, market-
                                                                         led production and agribusiness.

Afghanistan Vouchers for     2008-2011          431.0           NA       Include Afghan authorities, civilian and
Increased Production in                                                  military counterparts in program
Agriculture-Plus                                                         implementation. Strengthen MAIL and
                                                                         DAIL capacity to address farmer needs.

Afghanistan Water,           2008-2011           19.8           3.0      Provide technical assistance to improve
Agriculture, and                                                         MAIL’s irrigation and watershed
Technology Transfer                                                      management decision-making strategies
                                                                         and outreach capabilities.

Commercial Horticulture      2010-2014           30.4           0.6      Increase support to MAIL for the
and Agricultural Marketing                                               development of market-led agricultural
Program                                                                  production and marketing.




SIGAR Audit-12-1 Governance and Development/Agriculture                                                   Page 17
Program                          Performance          Estimated       Capacity-     Capacity-Building Objective
                                 Period               Total Cost       Building
                                                      ($ million)      Funding
                                                                     ($ million)

Incentives Driving               2009-2014               150.0            10.5      Enable local government to
Economic Alternatives for                                                           competently fulfill its role in driving
the North, East, and West                                                           long-term adoption and sustainability of
                                                                                    projects. Engage the Afghan public
                                                                                    sector to plan and implement activities,
                                                                                    especially in insurgent areas.

Improving Livelihoods and        2010-2013                  8.0            NA       Create and strengthen community
Governance through                                                                  governance institutions. Strengthen
Natural Resource                                                                    laws, policies, and institutions. Build
Management                                                                          capacity to manage the health interface
                                                                                    between livestock, wildlife, and people.

Pastoral Engagement,             2006-2011                  4.7            NA       Help build capacity of government
Adaptation, and Capacity                                                            personnel responsible for planning and
Enhancement                                                                         implementing livestock development
                                                                                    and rangeland resource management.

Total                                                   $833.0          $41.1
Source: SIGAR analysis of USAID data
Note: NA = Not Avaliable. USAID could not provide value of capacity-building activities.




SIGAR Audit-12-1 Governance and Development/Agriculture                                                            Page 18
APPENDIX III: COMMENTS FROM THE U.S. EMBASSY KABUL




SIGAR Audit-12-1 Governance and Development/Agriculture   Page 19
SIGAR Audit-12-1 Governance and Development/Agriculture   Page 20
SIGAR Audit-12-1 Governance and Development/Agriculture   Page 21
SIGAR Audit-12-1 Governance and Development/Agriculture   Page 22
SIGAR Audit-12-1 Governance and Development/Agriculture   Page 23
SIGAR Audit-12-1 Governance and Development/Agriculture   Page 24
SIGAR Audit-12-1 Governance and Development/Agriculture   Page 25
              (This performance audit was conducted under the project code SIGAR-035A).




SIGAR Audit-12-1 Governance and Development/Agriculture                                   Page 26
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction is to enhance oversight of
                              programs for the reconstruction of Afghanistan by
                              conducting independent and objective audits, inspections,
                              and investigations on the use of taxpayer dollars and
                              related funds. SIGAR works to provide accurate and
                              balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies,
                              and other decision-makers to make informed oversight,
                              policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              publically released reports, testimonies, and
                              correspondence on its Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     2530 Crystal Drive, Arlington, VA 22202
